  ANALYSIS OF COST SAVINGS ON
AMTRAK’S LONG-DISTANCE SERVICES

       Report Number: CR-2005-068
        Date Issued: July 22, 2005
           U.S. Department of
                                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on                                                                 Date:    July 22, 2005
           Analysis of Cost Savings on
           Amtrak’s Long-Distance Services
           Report No. CR-2005-068
  From:    Kenneth M. Mead                                                                Reply to
                                                                                          Attn. of:   JA-50
           Inspector General

    To:    The Secretary
           Deputy Secretary
           General Counsel
           National Railroad Passenger Corporation Board of Directors

           Long-distance intercity passenger rail service in the United States has sparked
           widespread controversy, in large part because of its heavy subsidies. In fact,
           Congress directed Amtrak to be operationally self-sufficient by 2002 and currently
           there is no authorization for the National Railroad Passenger Corporation
           (Amtrak). Meanwhile the subsidy has grown. In Fiscal Year (FY) 2004, long-
           distance trains (those with routes over 500 miles) cumulatively incurred operating
           losses of more than $600 million.1 There is no sign that this trend of large losses
           from long-distance service can be reversed by engaging in business as usual.

           Although one approach to reducing the losses posted by Amtrak is to simply
           eliminate long-distance service, this report considers a less drastic measure,
           namely to selectively reduce costs while continuing to provide basic long-distance
           service to meet the mobility needs of rural communities that may not have access
           to other transportation alternatives.

           Many of those who advocate retaining Amtrak’s long-distance routes argue that
           Amtrak service along those routes is needed to meet basic transportation needs of
           communities that are far from major metropolitan areas. The long-distance trains
           serve 41 states and are the only intercity passenger rail service in 23 of those
           states. This report presents the results of our ongoing analysis of options for

           1
               Reported by Amtrak in its Route Profitability System. This figure includes losses from Mail & Express services on
               long-distance trains, as well as from the Three Rivers route, but excludes all interest and depreciation.
                                                                                                                        2

reducing operating losses and capital costs of Amtrak’s long-distance operations.
The issue of whether all long-distance routes and frequencies should be retained,
and the possibility of achieving further savings by cutting routes or frequencies at
some time in the future, is not part of this report. Instead, we focused our analysis
on ways to cut long-distance route losses while retaining Amtrak’s long-distance
passenger rail service on all currently served routes at the existing frequencies. In
our opinion, the chief argument for retaining Amtrak’s long-distance service is
that the service is needed to meet the basic mobility needs of the American public,
not to provide amenities that cannot be supported without adding to the operating
losses and, consequently, requiring more federal subsidies. A more detailed
discussion of our scope and methodology is included in Exhibit A.

We provided Amtrak’s Board of Directors with a draft of this report. In response,
the Board agreed that its long-distance and food service operations represent two
of its most urgent financial challenges. The Board acknowledged that long-
distance passenger rail service cannot remain viable without significant reductions
in operating expenses and indicated that Amtrak will be launching a number of
pilot projects to address the long-distance operating cost issues that our analysis
identified. The key to achieving cost reductions will be Amtrak’s commitment to
follow through with these pilot projects, and for this reason we have included
milestones for accomplishing this in our recommendations. The full text of the
Board’s response appears in the Appendix.

RESULTS IN BRIEF

Overall, the Federal subsidy for Amtrak’s long-distance train service is an
estimated $484 million annually on an operating basis.2 Total annual operating
losses (excluding Mail & Express) on the long-distance routes range from about
$12.3 million for the Cardinal to about $87 million on the Silver Service. Our
analysis identified potential annual operating savings of between $75 million and
$158 million, and an additional $79 million in planned annual capital expenditures
that could be avoided. Over 5 years, this amounts to between about $375 million
and $790 million in operating savings and $395 million in avoidable planned
capital expenditures.

We found that the per-passenger Federal subsidy for sleeper class service—also
called first-class service—on long-distance trains is markedly higher than the per
passenger subsidy in coach.3 (See Table 14 on the following page, and note that

2
    This figure excludes losses from Mail & Express services as well as from the Three Rivers route.
3
    It is important not to confuse the service associated with the sleeper cars with Amtrak’s other uses of the term first
    class, such as the upgraded seating areas on the Acela.
4
    Revenues per passenger fall well below average posted fares on Amtrak. Not only does Amtrak offer a variety of
    standard discounts (e.g. for seniors, American Automobile Association members, and National Association of Rail
                                                                                                                         3

Federal subsidies must cover net losses.) There are two classes of passengers on
Amtrak’s long-distance trains: coach and sleeper class. Sleeper class differs from
coach in that it provides a sleeping room (many with a private toilet and shower)
complete with turndown service, movie presentations and other entertainment
(also available to coach passengers), and prepaid meals in the train’s dining car.
Overnight coach passengers sleep in their seats. Coach passengers may use the
dining car on a pay-as-you-go basis (with the exception of the Auto Train, where
coach tickets include meals in the dining car), but coach passengers who buy food
on long-distance trains make most of their expenditures in the lounge car, which
has less expensive fare.

On an operating basis alone—that is excluding depreciation and interest—sleeper
class service on the Sunset Limited loses as much as $366 per passenger versus
$286 for each coach passenger. The spread is even greater on the Crescent, where
the loss per passenger for sleeper service is $330, versus $114 for coach.

On a fully allocated5 cost basis—that is including depreciation and interest—
sleeper class service on the Sunset Limited loses as much as $627 per passenger
versus $416 for each coach passenger (see Table 2 on following page). On the
Crescent, the loss per Table 1. Coach Class Versus Sleeper Class:
passenger for sleeper Loss Per Passenger on an Operating Basis
service is $552 on a fully                          Coach Class     Sleeper Class
allocated    cost     basis, Route                Rev. Cost    Net Rev. Cost    Net
versus $194 for each             Sunset Limited 88 374 (286) 261 627 (366)
coach passenger.       This              Crescent 79 193 (114) 188 518 (330)
                                Southwest Chief 82 280 (198) 298 605 (307)
means that passengers               Silver Service 74 173     (99) 170 414 (244)
receiving sleeper class                  Cardinal 47 176 (129) 147 385 (238)
services on Amtrak’s long-     California Zephyr 68 208 (140) 274 509 (234)
distance     trains     are     Lake Shore Ltd. 56 163 (106) 197 422 (225)
subsidized with Federal City of New Orleans 57 145 (88) 128 345 (217)
monies ranging from $269         Capitol Limited 49 161 (112) 155 363 (208)
on the Auto Train to $627             Texas Eagle 57 168 (111) 184 383 (198)
                                 Coast Starlight 56 137       (81) 187 344 (157)
on the Sunset Limited.
                                                  Empire Builder 70               163       (94) 244         398 (154)
                                                     Auto Train 197               223       (26) 292         415 (124)
Because of the disparity Source: OIG Analysis of FY 2004 Amtrak Route Profitability
between the level of System (RPS) data. Excludes revenue and costs of Mail & Express
subsidies for coach class service, discontinued in 2005.
service and the level of subsidies for sleeper class service, and because generally

    Passengers members), but it also routinely offers a selection of weekly specials discounting 70 percent to 80 percent
    of the ticket price.
5
    Amtrak has used another definition of “fully allocated costs.” Under that definition, fully allocated costs are the
    result of allocating all shared costs, such as maintenance of way, or overhead costs, across individual routes. In this
    report, only the costs per passenger are fully allocated in that sense. Our estimates of savings are based on marginal
    costs to the extent possible.
                                                                                           4

only about 16 percent of Amtrak’s long-distance passengers use the sleeper class
service, we identified sleeper class as an opportunity for cost-cutting. While
sleeper class generates greater revenue per passenger than coach class, the costs
associated with that revenue far exceed the revenue itself. Our analysis eliminates
the revenues and expenses associated with sleeper cars and food service. Overall,
our analysis shows that eliminating sleeper cars, dining cars (sleeper class fares
include meals in the dining car), and other amenities (onboard entertainment,
lounge seating, checked baggage service, and food and beverage service) on
Amtrak’s long-distance routes could save between $75 million and $158 million
per year in operating costs, and avoid an additional $79 million in planned annual
capital expenditures. This would result in between about $375 million and $790
million in operating savings and $395 million in avoidable planned capital
expenditures over 5 years. The reason that such savings are possible is that the
cost of the sleeper class and other amenities is so expensive that the revenues pale
in comparison.

While we recognize that Table 2. Coach Class Versus Sleeper Class:
passengers need access to Loss Per Passenger on a Fully Allocated Basis
some type of food service on                              Coach Class          Sleeper Class
long-distance trains, Amtrak Route                     Rev. Cost       Net Rev. Cost         Net
must find ways to provide           Sunset Limited       88 504 (416) 261 888 (627)
food service in a much more                 Crescent     79 272 (194) 188 741 (552)
efficient manner to eliminate      Southwest Chief       82 361 (279) 298 782 (484)
                                   Lake Shore Ltd.       56 224 (168) 197 636 (439)
the need for Federal subsidies
                                       Silver Service    74 249 (175) 170 590 (420)
for food services. Amtrak’s       California Zephyr      68 269 (202) 274 690 (416)
Inspector General has found                 Cardinal     47 242 (195) 147 527 (379)
numerous problems with              Capitol Limited      49 214 (165) 155 507 (352)
Amtrak’s management of its               Texas Eagle     57 215 (159) 184 505 (321)
food service. Options for City of New Orleans 57 189 (132) 128 439 (311)
food service that could be          Empire Builder       70 209 (139) 244 534 (290)
                                    Coast Starlight      56 182 (126) 187 471 (283)
tested on several long-
                                          Auto Train 197 314 (117) 292 560 (269)
distance     routes    include Source: OIG Analysis of FY 2004 Amtrak RPS data. Excludes
outsourcing, increasing food revenue and costs of Mail & Express service, discontinued in 2005.
prices, having passengers
obtain meals in stations during regular stops, distributing boxed meals that have
been prepared off the train, and selling packaged food from carts on the trains.
Amtrak should closely examine the true costs of providing all of its other services,
and implement additional measures to cut its operating losses. This type of
comprehensive analysis is something that Amtrak should have accomplished on its
own initiative.

We are recommending that the Amtrak Board of Directors require a thorough
analysis of costs on long-distance routes and the initiation of pilot projects on
                                                                                                                 5

select routes to test the effect of eliminating sleeper class and its associated
amenities. Amtrak should test and calibrate various alternatives in its pilot
projects, rather than use a one-size-fits-all approach. In constructing different
pilot projects, it is important to avoid unintended impacts on revenues. For
example, elimination of sleeper service without eliminating dining cars is unlikely
to provide significant savings, since sleeper class passengers account for more
than half of dining car revenues. If sleeper cars were eliminated and dining cars
remained, revenue attributed to the dining car would decrease significantly while
costs associated with the dining car would not.

BACKGROUND
Since April 2003, our testimony before Congress and assessment reports have
stated that the current model for intercity passenger rail is broken. Other than
budget cuts or the threat of budget cuts, the current model provides few incentives
for cost control or delivery of services in a cost-effective way. Service on long-
distance routes is particularly problematic in that it is associated with the highest
losses per passenger and is among the highest per passenger mile (see Exhibit B).

In FY 2004, long-distance trains carried about 15 percent of Amtrak’s total
intercity ridership. Only a small number of riders (14 percent on all long-distance
routes, and 9 percent excluding the Auto Train) of Amtrak’s long-distance trains
take the routes end-to-end. Of the 3.9 million passengers who rode long-distance
trains in FY 2004, only 527,000 rode the entire length of the route, and another
403,000 rode between city pairs also served by existing corridor service. Most of
the remaining sleeper class and coach passengers combined rode 500 to 800 miles
on average. In this analysis, we examined the net savings and corresponding
reduction in Federal subsidies gained from eliminating sleeper service, food
service, and other amenities that are the source of significant losses in long-
distance service.

RESULTS
Eliminating long-distance service would not solve Amtrak’s overall funding
problems, but removing sleeper service, dining cars, and other amenities from
these routes, while still maintaining basic coach service, could reduce net
operating losses by about $75 million to $158 million per year, depending upon
the range of assumptions about the flexibility of certain labor costs, of which we
will say more later.6 (See Figure 1 on following page.)



6
    Operating losses exclude any form of capital-related expenditures. This analysis was based on FY 2004 data from
    Amtrak’s Route Profitability System (RPS). RPS is Amtrak's cost allocation system. It takes data from Amtrak's
    Financial Information System, a financial ledger, and allocates it across all of Amtrak's routes.
                                                                                               6



      Silver Service


    Coast Starlight
                                                                   Figure 1. Annual
          Crescent                                                 Operating Savings
                                                                   From Elimination
   Southwest Chief                                                 of Sleeper Class
                                                                   and Amenities
   California Zephyr                                               (Millions of
                                                                   Dollars)
    Empire Builder


    Sunset Limited


Lake Shore Limited


       Texas Eagle


    Capitol Limited


City of New Orleans


           Cardinal
                                                              Source: OIG Analysis of
                                                              FY 2004 Amtrak RPS Data
         Auto Train


                       -$5   $0       $5      $10       $15     $20       $25      $30   $35



            TOTAL


                       $0    $25      $50    $75       $100    $125      $150     $175   $200

                                   "A" Scenario     "B" Scenario      "C" Scenario

         Assumption A: All maintenance-related labor costs are variable.
         Assumption B: 50 percent of all maintenance-related labor costs are variable.
         Assumption C: No maintenance-related labor costs are variable.
                                                                                                                      7

Removing sleeper cars, dining cars, Table 3. Amtrak’s Long-Distance Route
and       other      amenity-related   Operating Revenue, Costs, and Losses
equipment      from     long-distance Route                Rev.   Cost  Net
services would also yield an average        Silver Service   63.2 149.7 (86.5)
reduction of about $79 million in        Southwest Chief     34.5  97.4 (62.8)
planned annual capital spending.       California  Zephyr    34.2  86.5 (52.3)
Over 5 years, the potential Federal       Empire Builder     42.0  86.9 (44.9)
                                          Coast Starlight    32.4  71.4 (39.0)
operating subsidy savings ranges
                                                 Crescent    23.7  59.9 (36.2)
from about $375 million to $790          Lake Shore Ltd.     21.0  55.2 (34.2)
million, in addition to $395 million      Sunset Limited     12.5  41.9 (29.4)
in avoidable planned capital                  Texas Eagle    17.2  45.6 (28.4)
expenditures.                            Capitol Limited     12.7  36.5 (23.8)
                                                         City of New Orleans             12.8       33.2   (20.4)
                                                    7
Amtrak has 13 long-distance routes                                Auto Train             47.2       60.8   (13.6)
and 28 shorter, or “corridor” routes.                               Cardinal              4.9       17.1   (12.3)
None of the long-distance routes                          Total                        $358.4     $842.2 ($483.9)
                                      In millions of dollars. Source: OIG Analysis of FY 2004
makes money on an operating cost Amtrak RPS data. Excludes Mail and Express and the Three
basis. Losses on Amtrak’s long- Rivers route, which were discontinued.
distance routes range from $68 to $309 per passenger on an operating cost basis.
Of the 14 routes with the greatest losses per passenger, 13 are long-distance
routes. And of the 14 routes with the greatest loss per passenger mile, 9 are long-
distance routes.

 Table 4. Operating Revenue                 Revenue growth alone will not cure Amtrak’s
      FY 1996 – FY 2004                     losses. Overall, on an operating basis, Amtrak’s
Route                Change                 expenses are more than double its revenues, and on
Sunset Limited          -34 %
                                            some routes expenses are triple the revenues
Lake Shore Limited      -28 %
Capitol Limited         -24 %
                                            generated (see Table 3). Given the magnitude of
Auto Train              -12 %               Amtrak’s long-distance service losses, revenue
Silver Service           -3 %               growth alone is not likely to ever be sufficient to
Cardinal               -0.7 %               cover the total costs of operations. Across all long-
City of New Orleans     2.4 %               distance routes, total revenue increased only about
Crescent                5.5 %               1.5 percent from 1996 to 2004 in dollars adjusted
Coast Starlight          10 %               for inflation.
Southwest Chief          13 %
Texas Eagle              29 %
                                            Five of Amtrak’s long-distance routes showed
California Zephyr        34 %
Empire Builder           36 %
                                            significant revenue growth between FY 1996 and
 ALL ROUTES             1.5 %               FY 2004, while four others showed large revenue
Calculated in 2004 dollars. Excludes        decreases (see Table 4). For example, the Empire
Mail & Express. Source: Amtrak RPS          Builder showed revenue growth of 36 percent and

7
    One of the 13 long-distance routes, called the Silver Service, is made up of three different trains: The Silver Star
    (route length is 1,522 miles), the Silver Meteor (1,389 miles), and the Palmetto (829 miles). The Silver Star and
    Silver Meteor offer sleeping accommodations, but the Palmetto does not.
                                                                                                                        8

the California Zephyr showed revenue growth of 34 percent.8 Routes that showed
the largest revenue declines included the Sunset Limited (34 percent) and the Lake
Shore Limited (28 percent).

Majority of riders are coach. From the revenue changes, it is clear that
Amtrak’s efforts to increase revenue would not substantially reduce its operating
losses. As a result, we focused our analysis on better understanding what types of
passengers use the various services, distances traveled, and the cost structure of
long-distance trains. Overall, the average share of sleeper class passengers across
all routes is 16 percent (see Figure 2). The substantial majority (84 percent) of
passengers traveling on Amtrak’s long-distance trains ride in coach seats.
                                                                              Figure 2. 2004 Average
We also found that the average distance traveled
                                                                              Long-Distance Ridership
is far less than the route length. For example, on
the California Zephyr, 83 percent of the
passengers rode coach, and they traveled an
average distance of 713 miles, far less than the
route length of 2,438. The other 17 percent of                                                            Coach
the passengers were in sleeper class, and they                                                             84%
traveled an average distance of 1,452 miles,                                      Sleeper
about 1,000 miles less than the total length of                                    Class
the route. The percentage of endpoint-to-                                           16%
endpoint riders on the California Zephyr was
4 percent. (See Exhibit C for more details.)
                                                                              Source: Amtrak
In examining the revenues and costs associated with providing service to the
different categories of passengers, we found that sleeper class passengers account
for a disproportionate share of revenues. However, as shown in Table 1, we also
found that the high costs of providing sleeper services and their share of associated
amenities means that sleeper class passengers account for a disproportionate share
of the Federal subsidies necessary to cover costs on these routes.

The trains are designed more for sleeper class and high-end amenities.
Existing long-distance train makeup is disproportionately geared to sleeper service
and other higher-end amenities. Continuing with our example on the California
Zephyr, there are two sleeper cars and half of a transition dorm, as well as
specialized sleeper car personnel, dedicated solely to the 17 percent of riders who
are in sleeper class. Compare this with three coaches dedicated solely to the
83 percent who are coach passengers. The train consist9 also includes a diner car,

8
    Percentage change calculation is based on stating all costs in 2004 dollars, using the Gross Domestic Product deflator
    for transportation services.
9
    A train consist is the mix of equipment, including the type, number, and order of the locomotives and cars in a
    particular train.
                                                                                                                       9

of which sleeper class passengers account for greater than one half of its
revenue.10 Diner cars are staffed by one chef, one or two food preparation
assistants, and three to five attendants. Half of the transition dorm car is used to
house On-Board Services (OBS) personnel,11 the majority of whom are associated
with diner service. Thus, it is not surprising that the loss per sleeper class
passenger substantially exceeded the loss per coach passenger.

OIG Analysis Assumptions. Because of the substantial disparity in losses on the
different classes of services and amenities (sleeping accommodations, food and
beverage service, entertainment, and checked baggage service), we assessed the
effect on net losses that would result from concentrating on providing coach
service, not sleeper class and amenities, for all long-distance trains. By providing
just basic coach service, typical train sizes will decrease from two locomotives
pulling 9 to as many as 13 cars to one locomotive pulling 3 to 5 coach cars.

This change in long-distance rail service requires                              Table 5. Percent of Stations
adopting a shift in thinking about rail passenger                               On Long-Distance Routes
service akin to the major airlines’ moves to                                    With Baggage Check Service
eliminate meals and other amenities in order to                                 Route                              %
reduce their operating losses. The key to the shift                             Auto Train                         0%
                                                                                Cardinal                           0%
in thinking is to begin looking for other options.
                                                                                Sunset Limited                    25 %
We found that concentrating on basic passenger                                  Southwest Chief                   26 %
coach service, as opposed to travel with sleeper                                City of New Orleans               27 %
cars, dining, and other amenities, can result in                                Texas Eagle                       30 %
savings in Federal operating subsidies of about                                 California Zephyr                 37 %
$375 million to $790 million, and the avoidance of                              Capitol Limited                   38 %
$395 million in capital expenditures, over 5 years.                             Empire Builder                    49 %
                                                                                Crescent                          52 %
Our calculations assume the following changes in
                                                                                Lake Shore Limited                58 %
service:                                                                        Silver Service                    61 %
            • Sleeper cars and all on-board services                            Coast Starlight                   69 %
              would be discontinued. This amounts to Source: Amtrak Time Tables
              removal of all labor and supply costs associated with sleeper service,
              dining cars, lounge cars, commissaries, on-board entertainment, and
              coach attendants (this does not affect conductors, also called trainmen).
            • Baggage cars and checked baggage service would be discontinued.12
              This service already is not available at many stations on long-distance
              routes (see Table 5). On roughly half of the long-distance routes,
10
     Meals are included in the price of sleeper class accommodations.
11
     On-Board Services personnel include cooks, food preparation assistants, and attendants, but not conductors.
12
     Amtrak has 29 baggage-coach cars that originally had substantial baggage storage space in addition to coach seating.
     The baggage storage spaces were later converted to smoking lounges, but are being converted back to baggage space
     that can hold skis, bicycles, golf bags, and other large items. These cars may provide storage for oversized baggage
     that is now carried on baggage cars and cannot fit in the baggage spaces on regular coach cars.
                                                                                                                  10

                 checked baggage service is available at a third or fewer of the station
                 stops. The number of stations at which a passenger can check or
                 claim baggage ranges from 0 on the Cardinal to 69 percent on the
                 Coast Starlight.
            • Dining cars and any form of Federally subsidized food service would
              be eliminated. A dining car is a restaurant on wheels, with dining
              tables, wait staff, and a kitchen with cooking equipment, food storage, a
              chef, and food preparation assistants. On-board food service also incurs
              costs from Amtrak’s commissaries around the nation that stock and
              distribute food, beverages, and related materials.
            • Lounge cars would be eliminated because we have assumed that food
              service should be provided at no net cost to the taxpayer, or should have
              a positive effect on net cash flow. Lounge cars have more spacious
              seating, entertainment,13 and a food service area for beverages, snacks,
              sandwiches, and other lower-cost fare, rather than the full restaurant
              menu available in the dining car.
            • Dormitory cars would not be needed because they house attendants
              who provide on-board services that would be discontinued. Transition
              dorm cars are a combination of employee dormitory rooms and
              passenger sleeper rooms. We eliminated revenues and costs from these
              cars.

Our calculations also assume that:
            • None of the sleeper car passengers would switch to basic coach service
              if sleeper service is eliminated. The potential savings will be higher if
              some of the sleeper car passengers decide to use coach service.
            • No coach passengers would abandon Amtrak if they no longer had
              access to amenities such as full-service dining cars, lounge cars, and
              checked baggage service. The net operating cost savings will be lower
              if any current coach passengers do not find Amtrak an attractive travel
              choice after those amenities are eliminated.
            • These cuts would not necessarily trigger the job protection measures in
              collective bargaining agreements commonly known as C-2. The
              measures guarantee laid-off Amtrak employees benefits, pensions,
              collective bargaining rights, rehiring priority, job status retention, and
              training. The most notable benefit is the guarantee of severance of

13
     On Amtrak’s bi-level lounge cars, the top level is designed primarily for sightseeing and to provide an area for
     passengers to spend time away from their sleeper or coach cars. Onboard entertainment can include a feature movie
     in the lounge car, seasonal presentations, or onboard commentary by volunteer National Park Service rangers
     through Amtrak's Trails and Rails program.
                                                                                                                        11

                 5 years salary for the most senior Amtrak employees. The job
                 protections are not invoked, however, unless an Amtrak route is
                 eliminated or reduced in frequency to less than three times per week, or
                 an Amtrak repair and maintenance center is closed and workers are laid
                 off.

We used Amtrak’s RPS data to calculate cost reductions. Because RPS does not
provide data on how much of the labor costs associated with maintenance, heavy
repair, and turnaround costs are variable,14 we produced estimates using the
following three assumptions about this issue.
            • Assumption A—All maintenance-related labor costs are variable.
            • Assumption B—Fifty percent of all maintenance-related labor costs are
              variable.
            • Assumption C—No maintenance-related labor costs are variable; only
              maintenance-related material costs can be eliminated.

The Bottom Line

We found substantial net savings under all three assumptions of the analysis
on every route except the Auto Train.15 Summing across all the long-distance
routes, annual losses are reduced by approximately $75 million under
Assumption C to $158 million under Assumption A, on an operating cost basis
(see Figure 1). These estimates are based on FY 2004 data, but we found similar
reductions in losses using FY 2003 data.16 According to Amtrak’s capital plan,
eliminating all cars except coach cars and using fewer locomotives on long-
distance routes would also avoid outlays for overhauls and other capital
expenditures for the long-distance equipment. Consequently, providing basic
coach service only would also reduce Amtrak’s planned capital budget by about
$79 million a year.

Examples of Route-Specific Cost Decreases. The following shows typical cost
reductions that can be achieved by redesigning long-distance service around basic

14
     RPS is the only data that Amtrak has available to work with in analyzing impacts on route-level costs other than fuel,
     trainmen, and enginemen costs. It provides considerable detail on costs by route, but it does not provide information
     on how much of the labor costs associated with maintenance, heavy repair, and turnaround costs of the locomotives,
     sleeper cars, lounge cars, dining cars, and baggage cars discussed in this report are variable, and how much are fixed.
15
     Under Assumption C, losses for the Auto Train increased. The reason for this is that the Auto Train service is
     markedly different from all other long-distance service. The Auto Train was designed to haul the family car along
     with passengers heading off to vacation or spend the winter in Florida. Sleeper-class passengers make up 44 percent
     of all passengers on this train, by far the largest percentage of all the long-distance routes. Also, OBS workers are
     governed by far more flexible work rules on this route than on others, allowing for cost savings not possible
     elsewhere.
16
     Specifically, we performed an analysis of six routes under Assumption A using FY 2003 data, and found the results
     were similar to the results for those routes derived using FY 2004 data.
                                                                                 12

rail transportation in coach class (for more detail, see Exhibit D). We have
selected two routes, the California Zephyr and the Sunset Limited, and will briefly
lay out the projected savings according to Assumption B, under which 50 percent
of all maintenance-related labor costs are considered variable.

The California Zephyr travels between Chicago, Illinois, and San Francisco,
California, by way of Denver, Colorado. The train consists of two locomotives
and nine cars: a baggage car, two sleeper cars, a diner car, a lounge car, three
coach cars, and a transition dormitory car, which is used to provide sleeping
quarters for the attendants who provide on-board services, as well as overflow
sleeper class passengers. By eliminating the sleeper class service and other
amenities, the train would lose all of the cars except the three coach cars. With
much less weight to pull, only one locomotive would be needed for the train.

The total annual cost savings for the California Zephyr under Assumption B would
be approximately $27 million on an operating basis.17 The largest category of cost
reduction is in the labor and supplies costs required for on-board services. This
would amount to $16.6 million annually on this route. The second largest
category of operating cost savings is maintenance and turnaround service on the
equipment, since there is one less locomotive and six fewer cars. This savings
would amount to $4.6 million. The third largest category of savings is diesel fuel
for the locomotives, which amounts to $2.8 million. Smaller savings would be
achieved for information, advertising and sales; ticketing and station operations;
wreck and accident costs; heavy repairs; yard operations; and passenger
inconvenience, which is a category of funds spent when trains are severely late or
cancelled.

The Sunset Limited travels between Orlando, Florida, and Los Angeles,
California, by way of New Orleans, Louisiana, and Houston, Texas. The train is
pulled by one locomotive between Orlando and New Orleans, and two
locomotives between New Orleans and Los Angeles. The train has 11 cars: a
baggage car, three sleeper cars (one sleeper car travels only part of the route), a
diner car, a lounge car, four coach cars (one coach car travels only part of the
route), and a transition dormitory car. By eliminating the sleeper class service and
other amenities, the train would lose all of the cars except the four coach cars.
Only one locomotive would be needed for the entire route.

The total annual cost savings for the Sunset Limited under Assumption B would
be approximately $15.2 million on an operating basis. The largest category of cost
reduction for the Sunset Limited is in the labor and supplies required for on-board
services. This would amount to $10 million annually on this route. The second

17
     Operating costs include all costs except interest and depreciation.
                                                                                                              13

largest category of operating cost savings is maintenance and turnaround service
on the equipment, since there is one less locomotive and seven fewer cars. This
savings would amount to $2.1 million.

Capital Costs

Amtrak’s Capital Project Plan for FY 2005 through FY 2009 includes planned
capital expenditures averaging about $79 million per year that could be avoided by
the removal of equipment assumed in our analysis. (See Table 6.) The removal of
sleeper cars in particular accounts for 64 percent of these avoided costs. To the
extent that these avoided planned capital expenditures translate into avoided actual
expenditures, they represent cash savings.18

 Table 6. Amtrak Capital Project Plan Costs for Sleeper Class and Amenities
     Fiscal Year        2005      2006    2007      2008     2009   2005-09
               Remanufacturing and Overhaul of Existing Cars
Sleepers                $23.3     $69.6    $30.3    $13.7      $7.8  $144.7
Transition Dorms                      1.2       2.5      2.6    2.6                     2.7           37.3
Diners                                 .88      2.1      2.1   30.0                     2.2           11.6
Lounge Cars                            .82      2.2      2.2    2.2                    53.4           60.8
Baggage Cars *                        3.5       3.5        0      0                       0            6.9
Locomotives *                         5.0       5.0      5.0    5.0                     5.0           24.8
                                      Acquisition of New Cars
Sleepers                              2.0      77.0     32.0      0                       0         111.1
Total                               $36.6   $161.8     $74.3  $53.5                   $71.0        $397.3
* Data for baggage cars and locomotives do not differentiate between expenditures for long-distance
routes versus shorter routes. The figures here reflect our estimate of the share of these expenditures
allocated to equipment that would be removed from long-distance routes. Totals may not add due to
rounding. All numbers in millions of dollars.           Source: OIG Analysis of Amtrak Capital Plan


Another, more complete, way to gauge the capital cost savings associated with the
elimination of equipment assumed in our analysis is to consider the extent of
savings realized on a fully-allocated cost basis—i.e. including depreciation and
interest. The capital expenditures listed above would have resulted in a
corresponding increase in the book value of Amtrak’s assets. The higher book
value would result in increased depreciation expenses over time, which would be
avoided. We note that depreciation is a non-cash expense.

In addition, most of the equipment to be removed from service is leased and,
eventually, the interest costs associated with those leases can also be avoided.
However, any savings by virtue of reduced interest payments would only likely be
achieved in the longer term as the leases on the idled equipment expire. (While
18
     Amtrak’s capital plan is predicated on Amtrak’s budget request being fully funded, which did not happen in
     FY 2005, and is unlikely to happen in FY 2006. We were unable to obtain information on which projects will be
     carried out in the event of such a capital funding shortfall.
                                                                                                                        14

Amtrak has both an early buyout option as well as the right to terminate in most of
its leases, neither of these options provide for significant cost reductions.19) In the
longer term, savings on both depreciation and interest become important. We
found that the reduction in annual losses on a fully-allocated basis ranges from
$184 million under Assumption C to $267 million under Assumption A. On this
basis, there were positive savings on every route under every assumption. (See
Exhibit E for details on savings under Assumption B.)

Service Options
Food service. The Amtrak Inspector General has concluded that Amtrak spends
about $2 for each $1 sale of food,20 and has identified substantial problems in
management of food operations, including its efforts to outsource. Our analysis
assumes that whatever food service is ultimately provided, it will be at no net cost
to Amtrak. While one needs to recognize that passengers traveling on long–
distance trains for 10 to 12 hours or longer clearly need a means to access food
during the trip, this does not mean that food service should be provided with a
Federal subsidy.

Our analysis to date has not examined the elasticity of demand for coach service
should diner-based food service and other amenities currently offered be
eliminated. Amtrak officials have indicated that they are studying food service
alternatives and are attempting to restructure its current contract with Gate
Gourmet Inc., which operates Amtrak’s commissaries. There are a number of
options that should be explored that may provide food service for passengers at no
net cost to Amtrak. Options for reducing costs for food service through initiatives
or prototype test projects on several long-distance routes could include raising
food prices, outsourcing, having passengers obtain meals in stations during regular
stops, distributing boxed meals that have been prepared off the train, selling
packaged food from carts on the trains, or redesigning the lounge cars so that they
generate sufficient revenues to offset costs.

One or more of these options may require retaining a single lounge car on each
long-distance train. Using FY 2004 cost figures, keeping one lounge car for food
service on each train would reduce our previous estimated annual operating
savings by $44 million under Assumption A; $38 million under Assumption B;
and $33 million under Assumption C. These calculations do not take into account
the likelihood that passengers would purchase more from the lounge car if there


19
     While some additional cost reductions could be achieved in the near term if Amtrak were able to either sublease any
     of the equipment, use it elsewhere in the system, or renegotiate the lease terms, we anticipate that the lack of a real
     secondary market for much of this equipment makes it more likely that Amtrak would initially store the equipment
     and continue to pay the associated leases.
20
     “Evaluation Report: Food and Beverage Financial Performance,” Amtrak Inspector General Report E-05-05.
                                                                                                                       15

was no dining car, or that a more cost-effective way of providing service in the
lounge may be developed.

Sleeper service. In disaggregating the savings found in our analysis by category
of amenity—i.e. sleeper service, food service, baggage service, and other—we
uncovered a notable result. The elimination of sleeper service alone, without the
elimination of any associated food service or other amenity, produces a net loss on
an operating cost basis under assumptions B and C on most routes. This suggests
that it may be possible for Amtrak to develop a simplified sleeper service—i.e.
unassociated with food service—that earns a positive net return on an operating
cost basis from a marginal cost perspective.21 Note, however, that once capital
costs are included, the elimination of even a simplified sleeper service alone is
associated with substantial savings on every route, except the Auto Train, under
any of our assumptions.

RECOMMENDATIONS
We recommend that the Amtrak Board of Directors:

1.     Instruct Amtrak management to promptly perform a detailed analysis of the
services provided on each of the long-distance routes. Within 60 days, Amtrak
should submit for Board approval an action plan to implement multiple pilot
projects on its worst-performing long-distance routes as well as on others that
offer the best potential for savings. This would include pilots that involve the
removal of sleepers and all amenities as described in this report. Other pilots
could involve removing some of the amenities, or dining car service alone.

2.     Within 90 days following its approval of the action plan, the Amtrak Board
of Directors should report to the Secretary and to the Congress on Amtrak’s
progress and the financial status of efforts to reduce or eliminate the losses
associated with providing such services or amenities. The Amtrak Board of
Directors should direct management to suspend capital expenditures for the
remanufacture of excess equipment or acquisition of new sleeper, dining, lounge,
and baggage cars while the pilot projects are under way.

RESPONSE BY AMTRAK’S BOARD OF DIRECTORS
We provided Amtrak’s Board of Directors with a draft of this report. In response,
the Board agreed that its long-distance and food service operations represent two
of its most urgent financial challenges. The Board acknowledged that long-
distance passenger rail service cannot remain viable without significant reductions

21
     A marginal cost perspective differs from a total or average cost perspective in that it does not allocate any costs to
     the additional service that are shared with an existing service. On an average cost basis, even a simplified sleeper
     service loses money.
                                                                                 16

in expenses and indicated that Amtrak will be launching a number of pilot projects
to address the long-distance operating cost issues that our analysis identified. The
key to achieving cost reductions will be Amtrak’s commitment to follow through
with these pilot projects, and for this reason we have included milestones for
accomplishing this in our recommendations. The full text of the Board’s response
appears in an appendix to this report.

If you have any questions or if I can be of further assistance, please feel free to
contact me at (202) 366-1959, or Kurt Hyde, Assistant Inspector General for
Surface and Maritime Programs at (202) 366-6238.

                                         #
                                                                                17


EXHIBIT A. SCOPE AND METHODOLOGY
Most of the data on which the analyses in this report were based were taken from
Amtrak’s Route Profitability System (RPS) for FY04. Some analyses were
repeated using FY03 RPS data to validate that the qualitative results obtained were
not exclusive to FY04. Supplemental data obtained from the Amtrak OIG were
based on Amtrak payroll and food and beverage reports for FY03.

We did not validate the RPS data. Indeed, Amtrak has yet to complete its own
audit of the FY04 RPS. We also did not validate the data obtained from the
Amtrak OIG, except to ascertain that the sources from and methods by which it
was obtained were reasonable.

The scope of this analysis encompassed the following aspects of Amtrak’s long-
distance routes: their revenue and cost structure; ridership characteristics; and
planned capital expenditures. Planned capital expenditures data was taken directly
from Amtrak’s FY05-FY09 Capital Project Plan.

Information on the characteristics of long-distance ridership was drawn from
several sources. One was Amtrak’s “Long-Distance Train Network” report,
published March 16, 2005. We also had ticket-lift data from Amtrak showing
ridership by origin-destination pair and train. This was supplemented with data
taken from published Amtrak timetables on the distance traveled between each
origin-destination pair.

Our understanding of the revenue and cost structure of long-distance routes was
primarily developed through close examination of the data provided in Amtrak’s
RPS on a line-by-line basis for each route, and associated RPS and Financial
Information System (FIS) documentation. (RPS is assembled using FIS data.)
This was further developed through several meetings held and multiple e-mails
exchanged with Amtrak personnel on RPS and Amtrak’s methods of projecting
cost changes associated with service changes. RPS does not provide for a
breakdown of food and beverage revenues or costs by diner versus lounge service.
We obtained additional data allowing us to make such a breakdown from the
Amtrak OIG, which, in turn, obtained it from internal Amtrak reports.

All the preceding information was supplemented with interviews of and e-mails
exchanged with Amtrak personnel about a wide range of characteristics of long-
distance service. We also took a tour of the equipment on one long-distance train,
and made extensive use of Amtrak’s National [Off-Corridor] Consist Book,
effective April 26, 2004.




Exhibit A. Scope and Methodology
                                                                                   18

Analytical Methods

Before proceeding to any of the analyses reported on in this document, we
developed data representing baseline service that excluded mail and express
(M&E) for each of the routes. Since, Amtrak discontinued M&E service in FY05,
it is inappropriate to incorporate M&E revenues and costs in any analysis of future
operations. The process used to strip out these revenues and costs was similar to
that used to derive other results in the report, and is described in the next section.

Total Savings Calculations

Three of the analyses that form the basis of this report were done using the same
analytical methodology. Those three analyses included: (1) stripping out Mail and
Express revenues and costs to derive a baseline service; (2) stripping out the
revenues and costs associated with sleeper service and all amenities from the
baseline service; and (3) stripping out the revenues and costs of sleeper service
and all amenities except lounge car-based food service from the baseline service.

In these analyses, revenues for the particular discontinued service or amenities
were removed, while those for the remaining services were assumed to be
unaffected. In every case, there were costs that were clearly entirely related to the
discontinued service or services, and would not remain, even in part, in their
absence. For example, in the case of M&E, there were costs such as express cargo
insurance and mail administration. For the case of stripping out sleeper class and
other amenities, including all on-board services (OBS), all OBS labor and the
costs of feeding and housing that labor were eliminated. With respect to stripping
out sleeper service and all amenities except for lounge food service, the treatment
of OBS labor and supplies required use of the Amtrak OIG supplemental
information on the share of these costs lines that are related to diner service alone,
and could therefore be eliminated.

The maintenance-related costs of the equipment associated with particular types of
service, such as the costs of maintaining the sleeper cars associated with sleeper
service, were reduced with the elimination of that equipment. However, it was
unclear how much they should be reduced. Obviously, the materials costs of
maintenance-related activities associated with eliminated equipment could be
eliminated. However, it was unclear how much maintenance-related labor costs
would fall. It would depend on how much the elimination of equipment resulted
in a reduction in workforce, rather than just a reduction in workload.

Not having any information allowing us to determine the extent to which labor
costs would actually vary, we made three assumptions: (A) all labor costs were
variable; (B) 50 percent of labor costs were variable; and (C) no labor costs were
variable. In all instances, we assumed that materials costs associated with


Exhibit A. Scope and Methodology
                                                                                                              19

maintenance-related activities could be eliminated.         To the extent that
maintenance-related costs were variable, they were reduced in proportion to the
change in the primary allocating statistic used in RPS1 resulting from the
elimination of the particular equipment. (Note that the analysis of the elimination
of mail and express was always done using assumption B, so that the remainder of
our analyses began from a consistent baseline.)

Calculation of fuel costs was performed by explicitly calculating the gallons
consumed for each type of service, and then applying the average cost per gallon
implicit in FY04 data for that route. This calculation of gallons consumed was
done as it is done in RPS. Specifically, estimates were derived of the locomotive
fuel, hotel fuel, car fuel, and idle fuel used for each service. This involved the use
of additional data on car weights, the fuel rate for each category of fuel usage, and
the percentage of time spent idling.2

There are a number of categories of costs relevant to the two analyses of stripping
out sleeper class service and other amenities for which the RPS allocating statistic
is either passenger revenues or the number of passengers. With the assumed loss
of all sleeper class revenues, the costs assumed to be driven by passenger revenues
were reduced proportionately. On the other hand, it was assumed that most of the
costs associated with the number of passengers, such as station operations, would
be relatively fixed and would not actually decline with a fall in passenger
numbers. Exceptions were made for the costs associated with information and
reservations and with ticketing, which were reduced in proportion with the
assumed decline in ridership. Finally, in further keeping with the allocation
mechanisms in RPS, depreciation and interest costs for types of equipment that
were removed were reduced in proportion with the reduction in the number of
pieces of each type.

Derivation of Results by Passenger Type

The development of revenues and costs on a per passenger basis for coach versus
sleeper class was structured in two basic stages. The first entailed allocating
revenues and costs of the baseline service to the following categories: coach only,
sleeper class only, diner food service, lounge food service, other amenities, and
other shared. The second stage involved allocating the revenues and costs
associated with each category between coach passengers and sleeper class
passengers.



1
    An allocating statistic in RPS is a statistic used to allocate costs within a given category across routes.
2
    Information on percentage of time spent idling came from Amtrak responses to a survey published in “Locomotive
    Emissions Standards”, Regulatory Support Document, U.S. Environmental Protection Agency (EPA) Office of
    Mobile Sources, April 1998.


Exhibit A. Scope and Methodology
                                                                                   20

For a number of RPS line items, such as sleeping car labor, coach labor, and
baggage handling costs, the first stage allocation was straightforward. For others,
additional data or assumptions were necessary. The data allocating revenues and
costs between diner and lounge-based food service was essential to the allocation
of food and beverage-related revenues and costs. In the allocation of equipment-
related costs, several assumptions were critical. (These assumptions affected the
derivation of associated fuel costs as well.)

First, locomotive costs were treated differently on routes where there was only one
locomotive per train set versus routes with two. In the case of the former, all
locomotive-related costs were assigned to the category of other shared costs. On
all routes served by two-locomotive train sets, except the Capitol Limited, the
addition of sleeper cars to the assigned number of coach cars in itself would
require the addition of a second locomotive. (The assigned number of cars here
refers to the number of each type of car designated for trains on each route in the
Amtrak consist book.) Consequently, on all those routes locomotive costs were
split equally between the coach only and sleeper class only categories. This was
done in the case of the Capitol Limited as well.

Two critical assumptions were made in the allocation of car-related equipment
costs. The first is that the costs associated with the transition or single-level crew
dorm would be allocated in proportion to its use. Hence, the costs of this
equipment were allocated to sleeper class in proportion to the share of rooms kept
aside for sleeper car passengers. The remainder was then allocated across
categories in proportion to the share of OBS lodging costs accounted for by the
associated labor. The second assumption was that half of the costs associated with
the lounge car would be assigned to lounge food service, and the other half to
other amenities. (Only the lower half of the lounge car is devoted to food service.
The upper half is constructed to facilitate sightseeing, and is also the site of on-
board entertainment.)

The second stage of this analysis utilized the following guidelines. The revenues
and costs of other amenities and of other shared costs were allocated to each
category of passenger in proportion to the number of passengers in that category.
Diner food service and lounge food service revenues and costs were allocated to
each type of passenger in proportion to the revenues of each type of food service
accounted for by that type of passenger. Finally, coach and sleeper revenues and
costs were assigned to coach and sleeper class passengers, respectively.

Disaggregation of Savings

In seeking to understand the sources of the savings we derived, we disaggregated
savings into the following categories: elimination of sleeper service, elimination of
food service, elimination of baggage service, and other. This analysis began with


Exhibit A. Scope and Methodology
                                                                                 21

taking the difference between the revenues and costs for the baseline service and
the service without sleeper class or amenities. These differences were then
allocated to our categories: sleeper service, food service, baggage service, and
other. In most instances, this allocation was straightforward. The same
assumptions about the activity-related allocations of equipment costs—that is the
assumptions regarding allocation of transition dorm and lounge costs—were made
in this analysis as were made in the derivation of results by passenger type. It was
this analysis which led us to conclude that, solely on an operating basis, the
elimination of sleeper service alone, without the elimination of any other amenities
such as dining car food service, would actually increase losses.




Exhibit A. Scope and Methodology
                                                                                                  22


EXHIBIT B. AMTRAK’S LOSSES PER PASSENGER AND PER
PASSENGER MILE
                                                                           Routes

                                                                             Acela Express

                                                                             Metroliner

                                                                             Pere Marquette

            Operating Loss                                                   Piedmont

            Per Passenger                                                    Heartland Flyer

                                                                             Illinois Zephyr
            FY 2004                                                          Kansas City-St.Louis

                                                                             San Joaquins

                                                                             Regional/Federal

                                                                             Pacific Surfliner

                                                                             Vermonter

                                                                             Cascades

                                                                             Capitols

                                                                             Illini

                                                                             Adirondack

                                                                             The Downeaster

                                                                             Blue Water

                                                                             Hiawathas

                                                                             Ethan Allen Express

                                                                             Chicago-St.Louis

                                                                             Pennsylvanian

                                                                             Empire/Maple Leaf

                                                                             Carolinian

                                                                             Keystone Service

                                                                             Wolverines

                                                                             Clocker Service

                                                                             Auto Train

                                                                             Coast Starlight

                                                                             City of New Orleans

                                                                             Empire Builder

                                                                             Hoosier State

                                                                             Texas Eagle
            Long Distance Route                                              Cardinal

                                                                             Lake Shore Limited
            Short Distance Route
                                                                             Silver Service

                                                                             Crescent

                                                                             Capitol Limited

                                                                             California Zephyr

                                                                             Southwest Chief

                                                                             Sunset Limited


 -$350   -$300     -$250      -$200       -$150     -$100   -$50   $0     $50
                                   Dollars Per Passenger
                                                                        Source: Amtrak RPS




Exhibit B. Amtrak’s Losses Per Passenger and Per Passenger Mile
                                                                                                          23




                                                                                   Routes
                                                                                    Acela Express
                                                                                    Metroliner
                                                                                    Pere Marquette

               Operating Loss                                                       Piedmont
                                                                                    Heartland Flyer
               Per Passenger Mile
                                                                                    Kansas City-St.Louis
               FY 2004                                                              Illinois Zephyr
                                                                                    Clocker Service
                                                                                    Regional/Federal
                                                                                    San Joaquins
                                                                                    Vermonter
                                                                                    Adirondack
                                                                                    Auto Train
                                                                                    Illini
                                                                                    Cascades
                                                                                    The Downeaster
                                                                                    Capitols
                                                                                    Blue Water
                                                                                    Pacific Surfliner
                                                                                    Carolinian
                                                                                    Empire Builder
                                                                                    Pennsylvanian
                                                                                    Chicago-St.Louis
                                                                                    Empire/Maple Leaf
                                                                                    Coast Starlight
                                                                                    Texas Eagle
                                                                                    Ethan Allen Express
                                                                                    Wolverines
                                                                                    California Zephyr
                                                                                    Silver Service
                                                                                    City of New Orleans
                                                                                    Hiawathas
                                                                                    Lake Shore Limited
                                                                                    Keystone Service
                   Long Distance Route                                              Sunset Limited
                                                                                    Crescent
                   Short Distance Route
                                                                                    Southwest Chief
                                                                                    Cardinal
                                                                                    Capitol Limited
                                                                                    Hoosier State

 -$0.80   -$0.70   -$0.60   -$0.50 -$0.40 -$0.30 -$0.20 -$0.10   $0.00   $0.10   $0.20
                                  Dollars Per Passenger Mile
                                                                                  Source: Amtrak RPS




Exhibit B. Amtrak’s Losses Per Passenger and Per Passenger Mile
                                                                                                            24



   EXHIBIT C. ROUTE LENGTHS AND RIDERSHIP STATISTICS
                              Silver Service:          Silver Service:         Silver Service:
                                 Palmetto              Silver Meteor             Silver Star              Cardinal
   Coach Passengers                     231,608                 186,152                 258,262                 81,972
             % of Total                    100%                     87%                     88%                    92%
Aver. Distance traveled                      555                     625                     604                    406

  Sleeper Passengers                             0                  26,616                 35,603                   6,958
             % of Total                         0%                    13%                    12%                      8%
Aver. Distance traveled                          0                     970                  1,015                     604

          Route Length                         829                   1,389                  1,522                   1,146


                              Empire Builder           Capitol Limited   California Zephyr Southwest Chief
   Coach Passengers                    371,278                   144,373            280,164        239,136
             % of Total                    85%                      80%                83%            82%
Aver. Distance traveled                     666                      451                713            983

  Sleeper Passengers                        65,913                  36,437                 55,600                  50,867
             % of Total                       15%                     20%                    17%                     18%
Aver. Distance traveled                      1,376                     685                  1,452                   1,527

          Route Length                      2,206*                     764                  2,438                   2,256


                           City of New Orleans           Texas Eagle           Sunset Limited         Coast Starlight
   Coach Passengers                     161,967                 204,153                 73,234                346,563
             % of Total                    85%                     87%                     76%                    83%
Aver. Distance traveled                     441                     583                  1,050                     498

  Sleeper Passengers                        28,050                  30,466                 23,192                  69,035
             % of Total                       15%                     13%                    24%                     17%
Aver. Distance traveled                        693                   1,088                  1,464                     874

          Route Length                         926                   1,306                  2,764                   1,389


                             Lake Shore Ltd.               Crescent              Auto Train
   Coach Passengers                    242,117                  224,492                110,016
             % of Total                   87%                       87%                    56%
Aver. Distance traveled                    558                       539                    855

  Sleeper Passengers                        37,545                  32,085                 87,467
             % of Total                       13%                     13%                    44%
Aver. Distance traveled                        794                     766                    855

          Route Length                        959*                   1,377                     855
   * Longest distance possible to travel on the route. This route bifurcates, so route length is longer than the
   longest distance a passenger would travel on it.

   Source: Amtrak report "Long Distance Train Network," March 16, 2005.




   Exhibit C. Route Lengths and Ridership Statistics
                                                                                             25


EXHIBIT D. COST REDUCTION EXAMPLES

                      Cost Reductions for the California Zephyr
                                      (FY 2004, Assumption B)

                                                         Coach Service
                                       Service W/out     W/out 1st Class                Distribution
                                       Mail & Express     & Amenities       Savings     of Savings

                     Direct Costs
          Trainmen & Enginemen              12,233,025        12,233,025           -               0%
                     Fuel & Power            4,599,065         1,811,150   2,787,915               7%
                    OBS Services            16,574,140                 - 16,574,140               44%
                 Equipment Rental               21,426            10,713      10,713               0%
                  Yard Operations            1,107,763           755,293     352,470               1%
     Maint. & Turnaround Service            12,951,083         8,354,479   4,596,605              12%
                   Heavy Repairs               719,918           452,617     267,301               1%
                 Wreck & Accident            1,993,355         1,249,006     744,348               2%
    Operations, Track & Facilities           4,961,796         4,961,796           -               0%
         Admin. & Route Support                676,527           676,527           -               0%
           Payments to Host RR's             1,244,256         1,244,256           -               0%
           Info, Advertising, Sales          5,126,071         4,127,341     998,730               3%
       Passenger Inconvenience               1,340,783         1,118,759     222,024               1%
          Connecting Bus Service               215,872           215,872           -               0%
              Insurance & Liability          4,058,333         4,058,333           -               0%
   Ticketing & Station Operations            4,050,640         3,438,928     611,711               2%
Transportation Superv. & Training            1,817,464         1,817,464           -               0%
                   Police & Safety             302,815           302,815           -               0%
                    Special Trains                 356               356           -               0%
               Total Direct Costs          $73,994,688       $46,828,731 $27,165,956              71%

                   Indirect Costs
             Maintenance of Way              1,084,417         1,084,417           -               0%
                    Administration          11,420,254        11,420,254           -               0%
                          Interest          12,554,202         7,019,863   5,534,339              15%
                     Depreciation           14,767,735         9,389,768   5,377,967              14%
             Total Indirect Costs          $39,826,608       $28,914,302 $10,912,306              29%

                           TOTAL          $113,821,296       $75,743,034 $38,078,262           100%

    TOTAL NET OF DEP. & INT.               $86,499,359       $59,333,402 $27,165,956
                                                            Source: OIG Analysis of FY2004 Amtrak RPS




Exhibit D. Cost Reduction Examples
                                                                                             26



                       Cost Reductions for the Sunset Limited
                                      (FY 2004, Assumption B)


                                                         Coach Service
                                       Service W/out     W/out 1st Class                Distribution
                                       Mail & Express     & Amenities       Savings     of Savings

                     Direct Costs
          Trainmen & Enginemen               8,044,693         8,044,693           -               0%
                     Fuel & Power            1,632,997           634,605     998,392               5%
                    OBS Services             9,993,688                 -   9,993,688              47%
                 Equipment Rental                  470               282         188               0%
                  Yard Operations              409,138           275,542     133,596               1%
     Maint. & Turnaround Service             6,070,245         3,942,697   2,127,549              10%
                   Heavy Repairs               349,611           232,062     117,550               1%
                 Wreck & Accident              168,113           109,163      58,950               0%
    Operations, Track & Facilities           3,034,914         3,034,914           -               0%
         Admin. & Route Support              1,332,686         1,332,686           -               0%
           Payments to Host RR's             (751,822)         (751,822)           -               0%
           Info, Advertising, Sales          2,809,031         2,018,004     791,028               4%
       Passenger Inconvenience                 574,448           436,284     138,164               1%
          Connecting Bus Service               131,486           131,486           -               0%
              Insurance & Liability            440,940           440,940           -               0%
   Ticketing & Station Operations            2,345,038         1,468,298     876,740               4%
 Transportation Super. & Training               95,668            95,668           -               0%
                   Police & Safety              31,729            31,729           -               0%
                    Special Trains                   -                 -           -               0%
               Total Direct Costs          $36,713,073       $21,477,230 $15,235,843              71%

                   Indirect Costs
             Maintenance of Way                366,479           366,479            -              0%
                    Administration           4,846,787         4,846,787            -              0%
                          Interest           6,866,102         3,746,855    3,119,247             15%
                     Depreciation            8,732,545         5,753,530    2,979,015             14%
             Total Indirect Costs          $20,811,913       $14,713,651   $6,098,262             29%

             TOTAL                         $57,524,986       $36,190,881 $21,334,105           100%

    TOTAL NET OF DEP. & INT.               $41,926,339       $26,690,496 $15,235,843
                                                            Source: OIG Analysis of FY2004 Amtrak RPS




Exhibit D. Cost Reduction Examples
                                                                                                    27


         EXHIBIT E. NET SAVINGS FOR ALL ROUTES

                              FULLY-ALLOCATED COST BASIS (Assumption B)
                      Trains as Currently Structured (1)    W/out 1st Class or Amenities             Net
                       Revenue       Cost         Net      Revenue       Cost         Net         Savings
Silver Service              63.2      214.2        (151.0)      44.0       149.1       (105.1)         45.9
Coast Starlight             32.4        95.5        (63.1)      16.5         55.7       (39.2)         23.8
California Zephyr           34.2      113.8         (79.6)      16.5         75.7       (59.2)         20.4
Crescent                    23.7        84.9        (61.2)      16.3         57.2       (40.9)         20.3
Lake Shore Ltd.             21.0        78.1        (57.1)      12.5         50.4       (37.9)         19.2
Southwest Chief             34.5      125.7         (91.2)      16.9         89.0       (72.1)         19.1
Empire Builder              42.0      112.7         (70.8)      23.4         76.3       (52.9)         17.8
Sunset Limited              12.5        57.5        (45.0)       5.2         36.2       (31.0)         14.0
Capitol Limited             12.7        49.4        (36.7)       6.3         30.8       (24.4)         12.2
Texas Eagle                 17.2        59.0        (41.9)      10.3         41.3       (31.1)         10.8
Auto Train                  47.2        83.6        (36.4)      21.3         48.3       (27.0)           9.4
City of New Orleans         12.8        42.9        (30.1)       8.5         29.7       (21.2)          8.9
Cardinal                     4.9        23.5        (18.6)       3.5         18.5       (15.0)           3.6
TOTAL                     $358.3 $1,140.9        ($782.7)     $201.2     $758.3      ($557.1)       $225.6
                      (1) Excluding mail & express costs.                All numbers in millions of dollars.


                                  OPERATING COST BASIS (Assumption B)

                      Trains as Currently Structured (1)       W/out 1st Class or Amenities            Net
                       Revenue       Cost         Net         Revenue       Cost         Net        Savings
Silver Service              63.2      149.7         (86.5)         44.0       104.7       (60.7)          25.8
Coast Starlight             32.4        71.4        (39.0)         16.5         42.1      (25.7)          13.4
Crescent                    23.7        59.9        (36.2)         16.3         40.9      (24.6)          11.6
Southwest Chief             34.5        97.4        (62.8)         16.9         69.6      (52.6)          10.2
California Zephyr           34.2        86.5        (52.3)         16.5         59.3      (42.8)            9.5
Empire Builder              42.0        86.9        (44.9)         23.4         60.1      (36.7)           8.3
Sunset Limited              12.5        41.9        (29.4)          5.2         26.7      (21.5)            7.9
Lake Shore Ltd.             21.0        55.2        (34.2)         12.5         38.8      (26.3)           7.9
Texas Eagle                 17.2        45.6        (28.4)         10.3         32.2      (22.0)            6.5
Capitol Limited             12.7        36.5        (23.8)          6.3         23.9      (17.6)           6.2
City of New Orleans         12.8        33.2        (20.4)          8.5         23.0      (14.5)            5.9
Cardinal                     4.9        17.1        (12.3)          3.5         13.5      (10.0)           2.2
Auto Train                  47.2        60.8        (13.6)         21.3         33.9      (12.6)            1.0
TOTAL                     $358.3     $842.2      ($483.9)        $201.2     $568.8    ($367.6)         $116.3
                      (1) Excluding mail & express costs.                   All numbers in millions of dollars.
                                                                            Source: OIG Analysis of Amtrak RPS




         Exhibit E. Net Savings for All Routes
                                                                           28


EXHIBIT F. MAJOR CONTRIBUTORS TO THIS REPORT


   Name                                    Title

   Kurt Hyde                               Assistant IG for Surface and
                                           Maritime Programs

   Stuart A. Metzger                       Program Director

   Betty Krier                             Economist

   Clayton W. Boyce                        Editor-Writer,
                                           Strategic Communications

   Mitchell Behm                           Supervisory Financial Analyst

   Debra Mayer                             Economist

   Christopher T. Brothers                 Senior Analyst

   Akilah Boston                           Analyst




Exhibit F. Major Contributors to This Report
                                                                                 29


APPENDIX. RESPONSE FROM AMTRAK’S BOARD OF
DIRECTORS


The Amtrak Board of Directors has reviewed your “Analysis of Cost Savings” and
would like to express its appreciation to the DOT Inspector General’s office for its
considerable efforts. No one familiar with Amtrak will disagree with your
conclusions that its long-distance and food service operations represent two of its
most urgent and intractable financial challenges, and the Amtrak Board has been
diligently addressing the problems for several months.

With your analysis of the “first class” or sleeper service costs of Amtrak’s long-
distance operations, you have added valuable clarity and confirmed more
emphatically the direction the Amtrak Board continues to take since the launch of
its Strategic Reform planning process early this year to reduce long-distance
system operating expenses. As we move toward an environment in which States
will begin to shoulder a share of long-distance operating losses, long-distance
passenger rail service cannot remain viable without significant reductions in
operating expense.

As your analysis seems to acknowledge, there is no quick or simple “fix;”
nonetheless, in the months to come, Amtrak will be launching a number of pilot
projects intended to identify the most effective strategies for addressing the long-
distance operating cost issues you have highlighted.

                    David Laney, Chairman of the Board of Directors
                    National Rail Passenger Corporation




Appendix. Response From Amtrak’s Board of Directors
